No. 20-148
In the

Supreme Court of the United States
MARVIN WASHINGTON, DB, AS PARENT OF INFANT
AB, JOSE BELEN, SC, AS PARENT OF INFANT JC,
AND CANNABIS CULTURAL ASSOCIATION INC.,
Petitioners,
v.
WILLIAM PELHAM BARR, IN HIS OFFICIAL
CAPACITY AS UNITED STATES ATTORNEY
GENERAL, UNITED STATES DEPARTMENT OF
JUSTICE, TIMOTHY J. SHEA, IN HIS OFFICIAL
CAPACITY AS ACTING DIRECTOR OF THE DRUG
ENFORCEMENT Administration, UNITED
STATES DRUG ENFORCEMENT ADMINISTRATION,
AND THE UNITED STATES OF AMERICA,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the Second Circuit
BRIEF OF MINORITY CANNABIS BUSINESS ASSOCIATION
AND MINORITIES FOR MEDICAL MARIJUANA, INC. AS
AMICI CURIAE IN SUPPORT OF PETITIONERS

William Bogot
Joseph Collins
Counsel of Record
A lexandra Sobol
Fox Rothschild LLP
321 North Clark Street, Suite 1600
Chicago, Illinois 60654
(312) 517-9227
jcollins@foxrothschild.com
September 4, 2020
298074

Counsel for Amici Curiae

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTERESTS OF THE AMICI CURIAE  . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

The Classification of Cannabis as a Schedule
I Drug Under the CSA (21 U.S.C. § 812(B)(1))
Violates the Due Process Clause of the Fifth
Amendment to the U.S. Constitution Because
the Classification Was Based on an Invidious
Discriminatory Purpose. . . . . . . . . . . . . . . . . . . . . 3

II. Administrative Remedies Would Be Futile
Because the Administrative Body Has Shown
Itself to Be Biased on Numerous Occasions.  . . . 7
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Bolling v. Sharpe,
347 U.S. 497 (1954)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
McCarthy v. Madigan,
503 U.S. 140 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
U.S. Dep’t of Agriculture v. Monroe,
413 U.S. 528 (1973)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Village of Arlington Heights v.
Metropolitan Housing Development Corp.,
429 U.S. 252 (1977) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Washington v. Davis,
426 U.S. 229 (1976) . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4
Statutes and Other Authorities
U.S. Const. Amend. V  . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 7
21 U.S.C. § 811(a)(2)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
21 U.S.C. § 812(B)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Comparison of Bills to Regulate Controlled
Dangerous Substances and to Amend the
Narcotic and Drug Laws, Staff of H. Comm.
Ways and Means (Aug. 8, 1970) . . . . . . . . . . . . . . . . . . 5

iii
Cited Authorities
Page
Controlled Substances Act, 21 U.S.C. § 812 . . . . . . . . . . 2
Drug Abuse Control Amendment-I 970: Hearings
on H.R. 11701 and H.R. 13743 Before the
Subcomm. on Public Health and Welfare of H.
Comm. on Interstate and Foreign Commerce,
91st Cong. 80 (1970 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Health Secretary: There’s ‘no such thing as medical
marijuana,’ Dayton Daily News (Mar. 5, 2018) . . . . 8
James Higdon, Jeff Sessions’ Coming War on Legal
Marijuana, Politico (Dec. 5, 2016)  . . . . . . . . . . . . . . 9
Christopher Ingraham, Jeff Sessions personally
a sk e d Co n g r ess t o l e t him p r ose c u t e
medical-mar ijuana providers, The
Washington Post (June 13, 2017)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9
Josh Gerstein, Sessions to step up drug-war seizures,
Politico (July 19, 2017) . . . . . . . . . . . . . . . . . . . . . . . . . 9
Paula Reid and Stephanie Condon, DEA chief says
smoking marijuana as medicine “is a joke,”
CBS News (Nov. 4, 2015) . . . . . . . . . . . . . . . . . . . . . . . 8

1
INTERESTS OF THE AMICI CURIAE 1
The Minor ity Cannabis Business A ssociation
(“MCBA”) is a 501(c)(6) non-profit organization created
to serve the needs of minority cannabis entrepreneurs,
workers, patients, and consumers alike. Its mission is to
create equal access and promote economic empowerment
for communities of color through policy considerations and
outreach initiatives aimed at achieving equity for those
most affected by the “War on Drugs.”
Minorities for Medical Marijuana, Inc. (“MFMM”)
is a 501(c)(3) non-profit organization focused on advocacy
and education in support of minorities who have a vested
interest in cannabis public policy, business, healthcare
access, and social impact. MFMM envisions a forward
thinking and progressive approach to social justice and
equality in cannabis.
Together, amici are committed to dismantling
systemic discrimination in the cannabis industry. As
part of those efforts, they share an interest in addressing
the discriminatory intent underlying the classification
of cannabis as a Schedule I drug under the Controlled
Substances Act as well as inherent bias within the Drug
Enforcement Agency’s (“DEA’s”) administrative review
process. Accordingly, amici respectfully submit this brief
in support of certiorari and urge the Court to grant the
Petition for a Writ of Certiorari.
1. MCBA and MFMM state that no counsel for a party to
this case authored this brief in whole or in part; and no counsel
or party, other than amici and its counsel, made a monetary
contribution intended to fund the preparation and submission of
this brief. All parties have received timely notice of amici’s intent
to file and have consented to the filing of this brief.

2
SUMMARY OF ARGUMENT
Petitioners filed a complaint in the United States
District Court for the Southern District of New York
seeking (1) a judicial declaration that the classification
of cannabis as a Schedule I drug under the Controlled
Substances Act, 21 U.S.C. § 812 et seq. (“CSA”), is
unconstitutional, and (2) a prayer for injunctive relief
against enforcement of the CSA as it pertains to cannabis.
(Pet. App. 159a-279a). The district court dismissed
the complaint with prejudice for failure to exhaust
administrative remedies and, in the alternative, failure
to state a claim. (Id. at 32a-58a). The United States
Court of Appeals for the Second Circuit affirmed in part,
agreeing that Petitioners were first required to exhaust
administrative remedies. (Id. at 3a-29a). Petitioners now
seek from this Court a writ of certiorari to review the
decision of the United States Court of Appeals for the
Second Circuit.
In their Petition for a Writ of Certiorari (“Petition”),
Petitioners argue that the classification of cannabis as
a Schedule I drug under the CSA is so irrational that it
violates the Due Process Clause of the Fifth Amendment
to the U.S. Constitution. (Pet. 29-31). Amici join in this
argument, but further submit (as Petitioners argued in
the lower courts) that such classification also violates the
Due Process Clause because it was based on an invidious
discriminatory purpose. 2
2.   Petitioners’ Memorandum of Law in Opposition to
Respondents’ Motion to Dismiss (“District Court Brief”) at 57-59;
Petitioners’ Appellate Brief to the Second Circuit Court of Appeals
(“Appellate Brief”) at 47-50.

3
Petitioners further argue in their Petition that they
were not first required to exhaust administrative remedies
prior to filing their complaint because (1) the complaint did
not seek an administrative remedy, and (2) administrative
review would be futile because the agency—by its own
admission—is not empowered to grant the relief sought by
Petitioners. (Id. at 31-33). Amici join in these arguments,
but further submit (as Petitioners argued in the lower
courts) that administrative review would also be futile
because the administrative body has shown itself to be
biased. 3
Given the millions of registered patients who rely
upon cannabis to preserve their health and lives, and
the discriminatory motives behind the classification of
cannabis under the CSA, it is imperative that this Court
provide clarity in this area of law.
ARGUMENT
I.

The Classification of Cannabis as a Schedule I Drug
Under the CSA (21 U.S.C. § 812(B)(1)) Violates the
Due Process Clause of the Fifth Amendment to the
U.S. Constitution Because the Classification Was
Based on an Invidious Discriminatory Purpose.

The central purpose of the Equal Protection Clause
of the Fourteenth Amendment is the prevention of official
conduct discriminating on the basis of race. Washington
v. Davis, 426 U.S. 229, 239 (1976). “It is also true that the
Due Process Clause of the Fifth Amendment contains an
equal protection component prohibiting the United States
from invidiously discriminating between individuals or
groups.” Id. (citing Bolling v. Sharpe, 347 U.S. 497, 499
3.  District Court Brief at 107-08; Appellate Brief at 27-29.

4
(1954)). In Davis, this Court set forth the “basic equal
protection principle” that the governmental action claimed
to be discriminatory must ultimately be traced to an
invidious discriminatory purpose. 426 U.S. at 240. An
invidious discriminatory purpose may often be inferred
from “the totality of the relevant facts.” Id. at 242.
“Determining whether invidious discriminatory purpose
was a motivating factor demands a sensitive inquiry into
such circumstantial and direct evidence of intent as may
be available.” Village of Arlington Heights v. Metropolitan
Housing Development Corp., 429 U.S. 252, 266 (1977);
see also U.S. Dep’t of Agriculture v. Monroe, 413 U.S.
528, 534 (1973) (finding a statutory amendment violated
the equal protection clause because it “was intended to
prevent so called ‘hippies’ and ‘hippie communities’ from
participating in the food stamp program” and holding that
“a desire to harm a politically unpopular group cannot
constitute a legitimate governmental interest”).
He r e , t h e d i s c r i m i n a t o r y p u r p o s e o f t h e
classification of cannabis is well-documented. In 1969,
the Nixon administration formed a commission under the
chairmanship of Raymond Shafer, a former Republican
Governor of Pennsylvania, as a means to establish the
dangers of cannabis as a means to prosecute persons of
color and anti-war protesters. (Pet. App. 218a-219a).4 As
learned later through the Nixon tapes, these were two
groups Nixon despised. Indeed, John Erlichman, a senior
advisor to Nixon, was quoted as saying:
We knew we couldn’t make it illegal to be
either against the war or black, but by getting
the public to associate the hippies w ith
marijuana and blacks with heroin, and then
4. See also District Court Brief at 17; Appellate Brief at 13.

5
criminalizing both heavily, we could disrupt
those communities. We could arrest their
leaders, raid their homes, break up their
meetings, and vilify them night after night on
the evening news. Did we know we were lying
about the drugs? Of course we did.
(Id. at 219a). 5
Shafer, however, did not support Nixon’s agenda.
The Shafer Commission concluded that cannabis was
not as dangerous as perceived, and even recommended
decriminalization of cannabis. (Id. at 216a-218a).6 The
Nixon Administration, however, summarily rejected the
Shafer Commission Findings, and urged Congress to
criminalize cannabis under the CSA.  (Id. at 221a-222a).7 In
fact, former Attorney General John Mitchell of the Nixon
Administration actually drafted the CSA. 8 Congress then
adopted the CSA at Nixon’s insistence on October 27,
1970—approximately one month after it was introduced.
At the request of the Nixon Administration, Congress
5. See also District Court Brief at 17; Appellate Brief at 13.
6. See also District Court Brief at 16-17; Appellate Brief at
13-14.
7. See also District Court Brief at 17; Appellate Brief at 12-13.
8. See Comparison of Bills to Regulate Controlled Dangerous
Substances and to Amend the Narcotic and Drug Laws, Staff of
H. Comm. Ways and Means (Aug. 8, 1970); see also Drug Abuse
Control Amendment-I 970: Hearings on H.R. 11701 and H.R.
13743 Before the Subcomm. on Public Health and Welfare of H.
Comm. on Interstate and Foreign Commerce, 91st Cong. 80 (1970)
(statement of John Mitchell, Atty Gen. of the U.S.) (noting that
“the administration sent to Congress the proposed ‘Controlled
Dangerous Substances Act.’”).

6
placed cannabis under Schedule I, notwithstanding the
findings of the Shafer Commission that belied such a
classification. (Pet. App. 213a-214a).9
A s referenced in the Petition, another Ni xon
Administration alumnus provided an affidavit to
Petitioners explaining that Nixon sought to criminalize
cannabis pursuant to the CSA not out of concern for public
health, but because he associated cannabis with persons
of color and the anti-war left—two groups he regarded
as hostile to him and his administration. (Pet. 14) (citing
Pet. App. 221a-226a). In criminalizing cannabis, Nixon
believed he had devised a seemingly neutral basis upon
which to target so-called hippies and persons of color—
his perceived enemies—without raising constitutional
concerns. As stated in the affidavit:
The dr iv ing force behind the CSA and
its administration was to suppress and
discriminate. It represents a regrettable and
unfortunate period in American history which,
I trust, contemporary society will, at some
point, endeavor to correct—perhaps now.
(Pet. App. 221a-226a).
And finally, as set forth in the Petition, the following
entry in the diary maintained by H.R. Haldeman, Nixon’s
Chief of Staff, leaves no doubt as to the purpose for the
criminalization of cannabis:
[Nixon] emphasized that you have to face the
fact that the whole problem is really the blacks.
9. See also District Court Brief at 16-20; Appellate Brief
at 12.

7
The key is to devise a system that recognizes
this while not appearing to [do so].
(Pet. 15).10
An invidious discriminatory purpose can and should
be inferred from the totality of the relevant facts outlined
above. The findings of the Shafer Commission demonstrate
that there is no plausible basis for classifying cannabis as a
Schedule I drug under the CSA. Moreover, the statements
and testimony of former Nixon Administration officials
establish that the classification was based on an invidious
discriminatory purpose. As such, the classification violates
the Due Process Clause of the Fifth Amendment to the
U.S. Constitution.
II. Administrative Remedies Would Be Futile Because
the Administrative Body Has Shown Itself to Be
Biased on Numerous Occasions.
Amici agree with Petitioners that “filing a petition
with the DEA for de-scheduling cannabis would have
been a futile endeavor.” (Pet. 32).11 Because exhaustion
of administrative remedies is not mandated by the CSA,
the federal courts must exercise sound judicial discretion
in determining whether to require such exhaustion. In
exercising its sound judicial discretion, the Court must
balance the individual’s interest in retaining prompt
access to a federal judicial forum against countervailing
10. See also District Court Brief at 58-59; Appellate Brief
at 14.
11.   Petitioners, of course, never sought de-classification
or re-classification of cannabis. As stated in their Petition,
Petitioners sought a declaration that the classification of cannabis
is unconstitutional. (Pet. 33).

8
institutional interests favoring exhaustion. McCarthy v.
Madigan, 503 U.S. 140, 141 (1992), superseded by statute
on other grounds as recognized in Porter v. Sussle, 534
U.S. 516 (2002). However, “[i]ndividual interests have
weighed heavily where resort to the administrative
remedy would occasion undue prejudice to subsequent
assertion of a court action, where there is some doubt as
to whether the agency is empowered to grant effective
relief, or where the administrative body is shown to be
biased or has otherwise predetermined the issue before
it.” Id. at 140, 141.
Here, anti-cannabis bias is pervasive throughout
the administrative body. At the time Petitioners’ lawsuit
was filed, the then-Administrator of the DEA, Philip
Rosenberg, with whom re-scheduling petitions would be
filed, and who made recommendations to the Attorney
General on such issues, had already “decided” that medical
cannabis is “a joke.”12 The Administrator further rejected
the “notion that marijuana is also medicinal—because it’s
not,” and any suggestion that cannabis is medicine “really
bothers” him.13 Similarly, the present U.S. Health and
Human Services Secretary, Alex Azar stated during a
press conference that “[t]here really is no such thing as
medical marijuana.”14
12.  Appellate Brief at 27; Paula Reid and Stephanie Condon,
DEA chief says smoking marijuana as medicine “is a joke,” CBS
News (Nov. 4, 2015), https://www.cbsnews.com/news/dea-chiefsays-smoking-marijuana-as-medicine-is-a-joke/.
13. Id.
14. Health Secretary: There’s ‘no such thing as medical
marijuana,’ Dayton Daily News (Mar. 5, 2018), https://www.
daytondailynews.com/news/local/such-thing-medical-marijuanahealth-secretary-says-dayton/La8dTJgu6nF3ojSc1z6yPO/.

9
Furthermore, then-Attorney General Jeff Sessions,
who was expressly charged with the responsibility of
deciding re-scheduling petitions under the CSA, 21 U.S.C.
§811(a)(2)(3), made several disparaging remarks regarding
the use of cannabis, including that “he thought the KKK
‘were [sic] OK until I found out they smoked pot’” and
“[g]ood people don’t smoke marijuana.”15 Moreover, less
than three months prior to commencement of Petitioners’
action, Sessions sent a letter urging Congress to revoke
riders to omnibus appropriations legislation—expressly
prohibiting use of federal funds to prosecute Statelegal cultivation, possession, sale of, and treatment with
cannabis—so that he could prosecute those treating with
State-legal medical cannabis.16 And just one week before
this lawsuit was filed, Sessions announced his intention
to file civil forfeiture proceedings against those who own
and operate State-compliant cannabis businesses—what
Sessions described as “dangerous illegal drug activity.”17
While the Appellate Court seemed to agree that
Sessions was biased, it also believed that Sessions’
successor, Attorney General William Barr, would prove
15.   Appellate Brief at 28; James Higdon, Jeff Sessions’
Coming War on Legal Marijuana, Politico (Dec. 5, 2016), https://
www.politico.com/magazine/story/2016/12/jeff-sessions-comingwar-on-legal-marijuana-214501.
16. Christopher Ingraham, Jeff Sessions personally asked
Congress to let him prosecute medical-marijuana providers, The
Washington Post (June 13, 2017), https://www.washingtonpost.
com/news/wonk/wp/2017/06/13/jeff-sessions-personally-askedcongress-to-let-him-prosecute-medical-marijuana-providers/.
17.  Appellate Brief at 28; Josh Gerstein, Sessions to step up
drug-war seizures, Politico (July 19, 2017), https://www.politico.
com/story/2017/07/19/jeff-sessions-drug-war-seizures-240706.

10
not to be. (Pet. App. 15a-16a). That hope has proved to be
misplaced. In fact, regarding current Attorney General
William Barr, a career Department of Justice employee
recently testified to Congress that Barr’s personal
opposition to marijuana led him to direct improper
antitrust investigations into multiple cannabis company
mergers—accounting for nearly one-third of the division’s
cases in 2019. According to the whistleblower, Barr’s
directives “centered not on an antitrust analysis, but
because he did not like the nature of their underlying
business.”18 According to the whistleblower, the head of the
Antitrust Division, Assistant Attorney General Delrahim,
responded to internal concerns about these investigations
at an all-staff meeting on September 17, 2019. There,
Delrahim acknowledged that the investigations were
motivated by the fact that “the cannabis industry is
unpopular ‘on the fifth floor,’ a reference to Attorney
General Barr’s offices in the DOJ headquarters building.”19
Due to the compelling examples of bias set forth
above, Petitioners’ individual interests in retaining prompt
access to a federal judicial forum weighs heavily against
countervailing institutional interests favoring exhaustion
of administrative remedies, and would occasion undue
prejudice to subsequent assertion of a court action. For
this additional reason, Petitioners should be permitted to
proceed with their action in the district court.
18. Oversight of the Department of Justice: Political
Interference and Threats to Prosecutorial Independence Before
the H. Comm. on the Judiciary, 116th Cong. (2020) (testimony of
John W. Elias, chief of staff for the Justice Department’s Antitrust
Division), https://www.congress.gov/116/meeting/house/110836/
witnesses/HHRG-116-JU00-Wstate-EliasJ-20200624-U8.pdf.
19. Id.

11
CONCLUSION
For the foregoing reasons, amici MCBA and MFMM
respectfully request that the Court grant the petition for
a writ of certiorari.

Respectfully submitted,
William Bogot
Joseph Collins
Counsel of Record
A lexandra Sobol
Fox Rothschild LLP
321 North Clark Street,
Suite 1600
Chicago, Illinois 60654
(312) 517-9227
jcollins@foxrothschild.com
Counsel for Amici Curiae

